Pension Benefit Guaranty Corporation
      Office of Inspector General

           Audit Report



    Review of Sensitive Payments
          Fiscal Year 2000




             June 1, 2001
                                    2001-14/23152
                                    Review of Sensitive Payments

                                     Audit Report 2001-14/23152

                                                   CONTENTS

                                                                                                                         Page

INTRODUCTION ..................................................................................................           1

OBJECTIVES ......................................................................................................         1

SCOPE ................................................................................................................    1

BACKGROUND AND METHODOLOGY ................................................................                               2

CONCLUSION .....................................................................................................          3



                                              ABBREVIATIONS

CFR                             Code of Federal Regulations       

FY                              Fiscal Year       

GAO                             General Accounting Office

Guide                           Guide for Evaluating and Testing Controls Over Sensitive 

                                Payments
PBGC                            Pension Benefit Guaranty Corporation
                                   Review of Sensitive Payments

                                   Audit Report 2001-14/23152

INTRODUCTION

         Pension Benefit Guaranty Corporation’s (PBGC) Senior Level officials are vested with the
public trust and hold positions with decision-making authority. In those positions, the employees
may face intense scrutiny of their actions. Sensitive payments encompass a wide range of executive
functions including compensation, travel, official entertainment funds, unvouchered expenditures,
consulting services, speaking honoraria and gifts, and perquisites. Sensitive payment issues are
addressed in various laws, regulations, policies and procedures, and codes of ethics and conduct for
government employees.

OBJECTIVES

         We conducted an audit of Fiscal Year (FY) 2000 sensitive payments to certain PBGC Senior
Level officials during the period October 1, 1999 through September 30, 2000. To accomplish this
audit, the following objectives were completed:

        1. Evaluate the effectiveness of the management control structure over the areas of sensitive
           payments that encompass the following items:

            ·   compensation, 

            ·   travel, 

            ·   official entertainment funds, 

            ·   unvouchered expenditures, 

            ·   contracting and consulting services, 

            ·   speaking honoraria and gifts, 

            ·   executive perquisites, and

            ·   code of ethics criteria. 


        2. Evaluate compliance with applicable laws, regulations, policies and procedures, and the
           codes of ethics and conduct.

SCOPE

          Our scope was the universe of Senior Level officials at PBGC, including the Executive
Director, Deputy and Assistant Executive Directors, and other Senior Level officials. Senior Level
officials are defined as those who are in positions that have been classified above the GS-15 level
(Directive PM 20-6, § 3.a.). Our testing covered the areas identified by the United States General
Accounting Office (GAO) in its publication, Guide for Evaluating and Testing Controls Over Sensitive
Payments. Our testing did not encompass the application controls in Travel Manager. For
compliance criteria, we identified and reviewed the following federal laws, regulations and Corporate
policy and procedures:

        ·   41 CFR Chapters 300-304, Federal Travel Regulation System

        ·   5 CFR Part 2635, Standards of Ethical Conduct for Employees of the Executive Branch 

        ·   Directive FM 05-6, The PBGC Imprest Fund 

        ·   Directive FM 15-1, PBGC Systems for the Requisition of, Acquisition of and Payment for 

             Goods and Services
        ·   Directive GA 05-5, The PBGC Delegation of Authority System
        ·   Directive GA 10-5, PBGC Travel Policies and Procedures
        ·   Directive GA 10-6, PBGC Sponsored Meetings and Conferences
        ·   Directive IM 10-4, Speaking Engagements and Public Meetings
        ·   Directive PM 20-6, Senior Level Executive Program




                                                  1
        This audit was performed in conformance with government auditing standards and included
such tests of compliance with applicable federal laws, regulations, and PBGC directives, as we
deemed necessary. We discussed our conclusions with PBGC officials.

        We judgmentally selected our sample of Senior Level officials based upon our review of the
organizational staffing pattern and the vendor detail report for the fiscal period ending September 30,
2000.

BACKGROUND AND METHODOLOGY

         In May 1993, the GAO issued a Guide for Evaluating and Testing Controls Over Sensitive
Payments (Guide). The Guide describes procedures for review of the internal control structure over
sensitive payments, conflicts of interest, associated ethics matters, and a determination as to whether
those controls ensure compliance by senior government officials with major laws, established
regulations, and policies and procedures. The guide suggests that this review be performed as part of
the audit of the financial statements. Audit testing was specifically tailored to the sensitive pay
issues identified by GAO’s Guide.

Compensation

        We requested FY 2000 payroll data for the selected Senior Level officials. We obtained the
Earnings History Records from the payroll system and compared pay rates and other compensation to
that established by Corporate Directive PM 20-6.

Travel

        We obtained the travel vouchers for the selected Senior Level officials. We verified the
completeness of the travel vouchers provided our office by tracing paid vouchers to the vendor detail
report. We recalculated the voucher reimbursements to ensure compliance with the Federal Travel
Regulations and PBGC Directive GA 10-5. We reviewed the vouchers to ensure proper approvals and
appropriate supporting documentation was included in the voucher package.

Contracting and Consulting Services

          We obtained the public financial disclosure forms (SF-278s) for the selected Senior Level
officials. We reviewed the financial disclosure forms to determine if any potential conflicts of interest
could arise from procurement activities with firms in which the Senior Level officials have a financial
interest.

Official Entertainment Funds and Unvouchered Expenditures

        These funds are established by law for specific purposes. Previous audits have found these
type funds are not established for PBGC.

Speaking Honoraria and Gifts

         We obtained the reports PBGC was required to file with the Office of Government Ethics for
FY 2000 that detail reimbursement of travel from sources outside the Federal Government. We
reviewed the information provided by these reports and traced all items to appropriate supporting
travel documentation.

Executive Perquisites
        We obtained the logs for official use of the government vehicle maintained by PBGC. We
reviewed the logs to ensure that use of the vehicle was in accordance with Government regulations
and PBGC policy.




                                                  2
Code of Ethics

        We interviewed the Alternate Agency Ethics Official who explained PBGC’s policies and
procedures for informing its employees of their responsibilities regarding the code of ethics. We
reviewed the SF-278s of the selected Senior Level employees for conflicts of interest.

        During the course of our audit, nothing came to our attention that indicated that we should
include other areas for audit testing or examination under the sensitive
payment criteria.

CONCLUSION

        We noted improvement in the Corporation's processing of executive travel vouchers.
However, we noted that GSA Form 87, Official TDY Travel Authorization, was still being used in
PBGC's electronic travel management system, Travel Manager.1 In last year's audit of sensitive
payments, we found errors in Form 87.2 Our audit recommendation regarding this form, FOD-
283 is still pending.




1 Travel Manager Reporting System replaces our manual process of preparing, accounting for and
storing of travel documents. Travel Manager processing includes the electronic signature, routing
and submission of travel documents to the Payroll/Travel Office within the Controller's Division
of the Financial Operations Department of the Chief Financial Officer.
2 Review of Sensitive Payments for 1999, Audit Report 2000-14, August 21, 2000.



                                                 3
